                                   News From
                         The Office of Inspector General
                      Corporation For National And Community Service




Former program director found guilty of grand theft

An investigation by the Office of Inspector General (OIG), Corporation for
National and Community Service (Corporation) led to the conviction of a former
AmeriCorps program director who embezzled more than $37,000 in non-Federal
funds from a faith-based service program in Coconut Grove, FL. Donald McCoy
was found guilty of Grand Theft (Third Degree) in Dade County Circuit Court on
May 5, 2004. He was sentenced to three years of supervised probation and
ordered to make full restitution of the $37,512 he had embezzled from the faith-
based program. In July, Corporation officials debarred McCoy from obtaining
Federal contracts and grants, or serving as an official in an organization that
receives Federal funds, for a period of one year.
Office of Inspector General investigators, who had originally opened the case to
probe an alleged embezzlement of AmeriCorps funds, instead uncovered
McCoy’s theft of non-Federal funds. They alerted local police and prosecutors
and coordinated their investigation with those officials. Despite the fact that no
AmeriCorps Federal funds were included in McCoy’s embezzlement scheme,
Corporation officials ruled that his felony conviction merited debarment.
